              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
Management of Sensitive Equipment
at Selected Locations




DOE/IG-0606                                 June 2003
                               Department of Energy
                                   Washington, DC 20585

                                    June 16, 2003




MEMORANDUM FOR THE SECRETARY
                          &??ikA-J-+
FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Management of Sensitive
                         Equipment at Selected Locations"

BACKGROUND

The Department of Energy and its facilities' management contractors have come under
increased scrutiny regarding the management of sensitive personal property. The
Department defined sensitive property as equipment susceptible to misappropriation for
personal use or readily convertible to cash. Generally, this includes equipment such as
computers, personal digital assistants, cameras, and communications equipment. The
Department has made a significant investment in sensitive property. For example, our
analysis of inventory records at the Lawrence Berkeley and Lawrence Livermore
National Laboratories and the Stanford Linear Accelerator Center disclosed that the
acquisition cost of their active sensitive property inventories exceeded $152 million.

Because of the importance of this issue, we initiated an audit at these sites to determine
whether the Department was properly managing sensitive equipment.

RESULTS OF AUDIT

Management was ultimately able to locate virtually all of the items of sensitive
equipment we sampled. However, locating the equipment required a level of effort by
management which, in our judgment, exceeded normal expectations. The review
suggested a number of opportunities to improve accountability of sensitive equipment.
For example:

       Each site had sensitive items that had not been properly marked as Government
       property;

       Property records were not always updated to reflect custody changes when
       employees were reassigned or terminated;

       Berkeley and Stanford did not always apply inventory controls to computers that
       were fabricated on site;



                                 @     Printed with soy ink on recycled paper
                                            2


       Even though Berkeley purchased and maintained significant amounts of sensitive
       property, it was permitted to restrict inventory controls to a single class of
       property -- computers; and,

       Sites did not always ensure that items reported as stolen were entered into law
       enforcement recovery databases.

Further, we found that Department officials did not always ensure that contractors
consistently complied with local guidance and best practices pertaining to control,
tracking, and protection of sensitive property.

While almost all sample items were eventually located, recent agency experience
suggests that the Department would be well served if controls over sensitive equipment
were strengthened, improving accountability and deterring possible misuse, theft, or other
diversion of Government property.

Management at the laboratories recognized the concerns raised during this review and
indicated that they intended to address the issues. For example, officials from Livermore
and Berkeley informed us that they planned to develop uniform sensitive property control
and accountability techniques. This is a positive step. However, the report includes
additional recommended actions designed to strengthen the protection of sensitive
Government property.

MANAGEMENT REACTION

Departmental managers concurred with our recommendations and cited specific actions
taken to strengthen controls over sensitive equipment.

Attachment

cc: Deputy Secretary
    Administrator, National Nuclear Security Administration
    Under Secretary for Energy, Science and Environment
    Associate Administrator for Management and Administration, NNSA
    Director, Office of Science
    Director, Office of Resource Management, Office of Management, Budget and
              EvaluatiodChief Financial Officer
                                                                                                                --



MANAGEMENT OF SENSITIVE EQUIPMENT AT SELECTED
LOCATIONS

TABLE OF
CONTENTS



              Sensitive Equipment Accountability

              Details of Finding .......................................................................    1

              Recommendations ...................................................................          .4

              Comments..................................................................................   5


              Appendices

              1. Objective, Scope, and Methodology .....................................                   6

              2. Prior Reports .........................................................................   8

              3. Management Comments.....................................................                  10
                                                                                                         .-




SENSITIVE EQUIPMENT ACCOUNTABILITY

Opportunities for          While sites were ultimately able to locate virtually all of the items of
Improvements of Property   sensitive equipment we sampled, we noted opportunities to improve
Management Controls        controls and accountability. For example, we observed overly
                           restrictive definitions of sensitive equipment and failures to follow local
                           guidance and best practices for the control, tracking, and protection of
                           sensitive property.

                                                      Sensitive Equipment

                           The United States Code of Federal Regulations (CFX),Section 41,
                           Chapter 109, through which Departmental property regulations are
                           implemented, defines sensitive items as "property susceptible to being
                           appropriated for personal use or which can be readily converted to
                           cash." Cited as examples of items that should be closely controlled are
                           portable photographic equipment, communications equipment, portable
                           power tools, as well as laptops and other computers. Contractors are
                           required to obtain Departmental approval for the types of property to be
                           treated as sensitive.

                           Despite the wide range of equipment contemplated by regulation, the
                           Department of Energy (Department) permitted the Lawrence Berkeley
                           National Laboratory (Berkeley) to restrict sensitive equipment tracking
                           and control only to computers. The restrictive definition was further
                           narrowed in that it applied only to laptops and desktop computers and
                           excluded all other related peripherals such as printers, monitors, and
                           scanners. While Berkeley justified its decision, and received approval
                           from local Departmental officials, the analysis supporting the decision
                           did not adequately consider the inherent risk associated with sensitive
                           equipment.

                           Berkeley believed that low loss figures developed during previous
                           inventories and the declining cost of electronic equipment in general
                           justified narrowing the definition. The analyses did not, however,
                           adequately address inherent risk of loss and the deterrent effect
                           associated with strong accountability and inventory controls. Because
                           controls had not been applied in this area, a significant amount of effort,
                           and delays as long as 10 days, were required for Berkeley property
                           management officials to identify property that we selected for inventory
                           testing. Delays and difficulties in locating property were noted for a
                           number of items cited in the CFR and was not limited to computers.




Page 1                                                                           Details of Finding
                                    Equipment Tagging

         Despite Departmental and local property guidance, we observed that
         sensitive property was not always marked or properly identified as
         Government property. Each of the three locations reviewed required
         the use of Government property stickers on items such as computer
         monitors and cellular telephones, and in some cases, even noted the
         theft deterrent associated with such marking. However, we noted that
         such requirements were not routinely followed and that numerous items
         had not been properly marked. Property management officials at
         Berkeley told us that they were not actively pursuing tagging what they
         considered 'Inon inventory" items. At Stanford Linear Accelerator
         Center (Stanford), we also identified three sensitive items that were not
         tagged and tracked as required.

         We also noted that inventory stickers were not always affixed to
         computers that had been assembled from components at the site. In
         spite of requirements to tag and track fabricated property items, we
         observed that approximately 40 computers assembled at Berkeley and 3
         at Stanford did not have inventory stickers and were not listed in the
         property system. Based on our sampling, this problem appears to be
         limited primarily to computers assembled on site.

                                     Property Records

         In addition, inventory records did not always accurately reflect either
         the correct custodian or location of sensitive property. Specifically, we
         found instances where employees were relocated or equipment was
         reassigned, and inventory records were not updated to reflect the
         change. For example, a sample of 150 recently terminated employees
         revealed that 17 still had 41 pieces of active sensitive equipment
         assigned to them. Berkeley and the Lawrence Livermore National
         Laboratory (Livermore) told us after completion of our site work that
         they had been able to locate all of the items of equipment in question.
         Stanford, however, was unable to locate several items.

         The sites, in many instances, were only able to locate the items in our
         samples after extensive effort. In certain instances, we had limited
         assurance that items such as computer monitors and printers observed
         during our testing were the actual items of interest. This occurred
         because at each of the sites certain items of sensitive equipment were
         not included in inventory, and procurement records did not contain
         serial or specific model numbers. In those cases, we relied on product
         description, manufacturer, or similar information in an attempt to
         distinguish the sampled item among like items.

Page 2                                                         Details of Finding
                               Law Enforcement Databases

         Site officials also did not always take advantage of opportunities to
         report stolen property to national law enforcement databases, which
         may have increased the likelihood of regaining control of recovered
         stolen property. At Livermore, site law enforcement officials told us
         that they reported property stolen on-site to the National Crimes
         Information Center (NCIC). However, officials at Berkeley and
         Stanford indicated that law enforcement officials authorized to access
         the NCIC database were no longer employed at their sites and thus
         property stolen on-site was not reported to NCIC. In addition, site
         officials stated that they did not always coordinate with local law
         enforcement to ensure that property stolen off-site is entered in the
         NCIC database. We noted that of the 47 sensitive items stolen on or off
         the three sites over the past two years, only 9 had been entered into the
         NCIC database. Without such entries, even if the items were
         subsequently recovered it is unlikely they would be returned to the
         Government.

                                   Other Control Issues

         During our review, several other issues were identified that detract from
         the effectiveness of property control efforts. Specifically:

              0   Weaknesses in controls over the delivery of sensitive
                  equipment increased the risk that equipment could be stolen or
                  removed by other than the intended recipient. While the
                  delivery of most equipment was properly controlled, at
                  Livermore, equipment could be dropped off at facilities and
                  left unsecured without a custodian signing for the property.
                  At Stanford, sensitive equipment could be delivered directly to
                  an end user without first being entered into the property
                  accounting system;


              0   None of the sites reviewed maintained accountability over
                  sensitive property until final disposition. Equipment that had
                  reached its full service life was removed from the inventory
                  management system regardless of whether it remained in use.
                  For example, at Livermore, accountability was not maintained
                  for computers that were over 5 years old. Such equipment
                  was not subjected to periodic inventory and custodyAocation
                  changes were not recorded; and



Page 3                                                        Details of Finding
                                  Controls over property used off-site were not consistently
                                  enforced. In several instances, property was removed from
                                  the site without first obtaining a property pass.


Property Standards and   These weaknesses occurred because the Department did not ensure that
Implementation           contractors consistently complied with local guidance and best practices
Procedures               pertaining to control, tracking, and protection of sensitive property, and
                         in the case of Berkeley, permitted the site to adopt a narrow definition
                         of sensitive equipment. Inconsistent implementation of inventory
                         control procedures also resulted in sensitive equipment not being
                         properly tagged and tracked throughout its lifecycle. The Department
                         also permitted Berkeley to limit its control of sensitive equipment to
                         computers, thus excluding accountability for highly attractive items
                         such as digital cameras, personal digital assistants, and video equipment
                         that are easily pilfered.


Control Environment      While the sites reviewed were ultimately able to locate virtually all of
                         the items included in our samples, opportunities to improve controls
                         and accountability over sensitive property exist. As noted in our recent
                         special inquiry at Los Alamos, weak property accounting controls had
                         a serious and substantial impact on operations of the Laboratory and
                         severely damaged its reputation. The Department should ensure that all
                         sensitive property is properly identified and that management controls
                         are in place and are operating as intended. Without improvements in
                         this area, sites remain susceptible to misuse, theft, or other diversion of
                         Government property.


RECOMMENDATIONS          To ensure sensitive equipment is adequately managed, we recommend
                         the Associate Administrator for Management and Administration,
                         NNSA and the Director, Office of Science, in conjunction with the
                         Director, Office of Resource Management, Office of Management,
                         Budget and Evaluation:

                             1. Provide guidance to specifically define the categories of
                                sensitive equipment to be accounted for by contractors; and,




Page 4                                                                        Recommendations
                                                                                                 ---




                         2. Ensure that contractors follow sound property accounting
                            management practices including:

                                 Properly identifying sensitive items;

                             0   Coordinating with local law enforcement agencies to ensure
                                 that stolen property is entered into the national stolen
                                 property database; and,

                                 Maintaining current site inventory property records
                                 including control over the delivery, receipt, and movement
                                 of sensitive equipment.


MANAGEMENT REACTION   Management generally agreed with the draft report and
                      recommendations. Specifically, management agreed that there were
                      opportunities to improve controls and accountability over property and
                      cited specific actions initiated to realize these opportunities. For
                      example, management stated that it had taken action to clarify roles and
                      responsibilities, strengthen accountabilities, and review business
                      systems that purchase, track, and manage sensitive property.
                      Management also provided technical comments on the draft that we
                      considered in preparing the final report.


AUDITOR COMMENTS      Management's comments are responsive to our recommendations.




Page 5                                                                            Comments
                                                                                      --




Appendix I

OBJECTIVE     The objective of this audit was to determine whether the Department
              was properly managing sensitive equipment at selected sites.


SCOPE         The audit was performed between December 2002 and March 2003
              at the Lawrence Berkeley National Laboratory in Berkeley,
              California; the Lawrence Livermore National Laboratory in
              Livermore, California; and the Stanford Linear Accelerator Center in
              Palo Alto, California.


METHODOLOGY   To accomplish our objective, we:

                     Reviewed applicable laws and regulations pertaining to
                     sensitive equipment management. We also reviewed reports
                     by the Office of Inspector General, the General Accounting
                     Office, and contractor internal audit organizations;

                     Reviewed the Government Performance and Results Act of
                     I993 and determined if performance plans and measures had
                     been established;

                     Reviewed numerous documents related to property
                     management and procurement;

                 0   Conducted inventory verification of statistical samples of
                     sensitive items. Because site definitions for sensitive
                     equipment varied, we used data mining techniques to identify
                     the populations of sensitive equipment purchases at each site.
                     We then statistically selected samples from these
                     populations. In all, we sampled 1,537 items for verification.
                     Firearms and ammunition were excluded from our
                     examination because they were addressed in our recently
                     issued report on Inspection of Firearms Internal Controls at
                     Los Alamos National Laboratory (DOEIIG-0587, February
                     2003); and,

                     Held discussions with program officials and personnel from
                     Headquarters, Lawrence Berkeley National Laboratory,
                     Lawrence Livermore National Laboratory, Oakland
                     Operations Office, and Stanford Linear Accelerator Center.




Page 6                                        Objective, Scope, and Methodology
         The audit was conducted in accordance with generally accepted
         Government auditing standards for performance audits and included
         tests of internal controls and compliance with laws and regulations
         to the extent necessary to satisfy the audit objectives. Accordingly,
         we assessed internal controls regarding the management of sensitive
         equipment. Because our review was limited, it would not
         necessarily have disclosed all internal control deficiencies that may
         have existed at the time of our audit. We did rely on computer-
         processed data to accomplish our audit objectives. We performed
         limited test work of data reliability during our audit and determined
         we could rely on computer-processed data.

         Management waived the exit conference.




Page 7                                   Objective, Scope, and Methodology
Appendix 2
                                       PRIOR AUDIT REPORTS


         Interim Report on Inspection of Internal Controls Over Personal Computers at Los Alamos
         National Laboratory, (DOEAG-0597, April 2003). The purpose of this inspection was to
         determine the adequacy of internal controls over laptop and desktop computers at Los
         Alamos. The inspection found that controls over classified and unclassified laptop computers
         were inadequate. Specific recommendations were made to improve controls. Management,
         while not formally concurring, expressed general agreement with the report, and stated that
         the issues presented in the report would be factored into corrective action efforts underway by
         the University of California, Los Alamos National Laboratory, and others.

         Inspection of Firearms Internal Controls at Los Alamos National Laboratory (DOEIIG-0587,
         February 2003). Significant internal control weaknesses exist in the receiving process and the
         administration of the firearms inventory. Specifically, Los Alamos officials were unable to
         provide an accurate firearms inventory; some firearms were not entered into the inventory;
         site inventory validations did not identify inaccuracies; separate firearms inventories
         maintained by the Laboratory and its protective force contractor were not reconciled; and, all
         firearms were not processed through a central receiving point. These weaknesses increase the
         vulnerability of firearms to loss, theft, and abuse.

         Special Inquiry on Operations at Los Alamos National Laboratory (DOEIIG-0584, January
         2003). The inquiry disclosed a series of actions by Laboratory officials that had the effect of
         obscuring serious property and procurement management problems and weakened or
         overrode relevant internal controls. Specifically, there was inadequate or untimely analysis
         of, and inquiry into, property loss or theft and security issues; lack of personal accountability
         for property; a substantial degree of dysfunction in the Laboratory's communication and
         assignment of responsibilities for the handling of property loss and theft concerns; and,
         inadequate controls over procurement and property systems.

         Special Report on Management Challenges at the Department of Energy (DOEAG-0580,
         December 2002). Based on ongoing work at Los Alamos National Laboratory, the OIG
         observed a substantial degree of dysfunction in the Laboratory's handling of property loss and
         theft. The OIG and other reviewers identified significant weaknesses in internal controls over
         property and the use of purchase cards.

         Inspection of Lawrence Livermore National Laboratory Credit Card Usage and Property
         Management Concerns (INS-0-0 1-01, February 200 1). Improvements could be made in the
         property management process at Lawrence Livermore National Laboratory. Specifically,
         Livermore could have expanded its list of personal property items considered to be sensitive
         with regard to items fiequently purchased with credit cards. In addition, some credit card
         users in eight of Livermore's ten Directorates included in the inspection were not identifiring
         personal property items purchased with credit cards as U.S. Government property as required
         by contract.

Page 8                                                                                         Prior Reports
                                                                                                         -




Appendix 2 (continued)


     a   Department of Energy Management of Excess Property (GAO/RCED-99-3, November
         1998). Neither federal property management regulations nor the Department's regulations
         and guidance include specific criteria to determine when personal property is no longer
         needed. Most of the Department's real and personal property are under the control of its
         contractors. The Department acknowledged problems with its identification and disposal
         of excess real and personal property.




Page 9                                                                                   Prior Reports
Appendix 3



                                        Department of Energy
                                   NationalNuckerseourllyAdmlnistratlon
                                           W h i m , DC 20566

                                               MAY 1 3 2003

             MEMOIULNDUM FOR               h d u i c k D. Dogget&
                                           ~AssistantInspbctoromd
                                            for Audit Servicexi          A




             FROM



             SUBJECT:                      comments to 10's Draf€Report on the Manegtment
                                           of sensitive Equipment

             NNSA appre&ta having had the opporhmity to have reviewed ths Xuspector
             G c n d ' e (IG) draft rqxnt, "Maaagamcat of Sensitive Bsurpmcnt at Selected
             Locations." The locatione fat the audit WQI: tht Lawrence Bedreley and
             Lawrence Liveimore National Laboratoriesand the SEanfotdLinear A ~ ~ e l u a t o r
             Centor. The LawrsncbLivermare Natioaal Laboratoryis an NNSA laboratory
             wfiile the otha two locatioM      under thc cognizance of the Departsleslt's Office
             ofScience.

             While the Office of S d e n is~ providing
                                             ~         a separate reapwe, NNSA agrees that,
             as the I 0 Stat&% thare ate dmys oppamuu.  'ties to improve controls and
             accountability over any pmp8rty. NNSA belisvas, and I interpn3t the draft to
             suppat,that d t i v e ecpipmmt is beingpropcdymsaaged but mods to be
             stldngthenod W e apprsCiatc the fact that tho Ict aclc~owlsdgtstheir planaed
             development ofuniform sensitive paopaay control a d                * ' chaogas.
             We also agree with the IG that controls over ssnsitivoproperty llluet bo
             strengthened

             Since all locations am wmactdly managad by NNSA's Livmnore Site offioc,
             we asked the staff to prcpat.e 8omo comments for NNSA's and the Office of
             Science's considemion. I am p v i d i n p thosa comments to you for your
             consideration prior to isswna of the final report.

             Should you havs any pusatia~,plsasa ~0ntaCtRiobard Speickl, Director far
             Policy and lntemal Controls Mansgamcnt. He may bo roached at 202-586-5009.

             cc:    Ditsctor, OEce of Sciancq SC-I
                    Semior Proamanant E%ccutivc,NA-63




                                              ______~___~_           -   ____I                        -_   ~




Page 10                                                                                 Management Comments
Appendix 3 (continued)


                                          Department of Energy
                                            Office of Science
                                          Washington, DC 20585
                                                                                    Office at the Director
                                              May 16.2003




          MEMORANDUM FOR FREDERICK D.DOGGETT
                         DEPUTY ASSISTANT INSPECTOR GENERAL FOR
                          AUDIT SERVICES

          FROM:



          SUBJECT:                Comments on IG Draft Report,"Management Sensitive
                                  Equipment at Selected Locations"

          Staff of the Officeof Science and the Office of Management, Budget and Evaluation
          have reviewed the Subject report and offer the following comments.

          Management agrees in general with tha recommendations, arid already has in process
          actions that will result in improvements in how sensitive equipment is managed and
          controlled at field sites. Since 2002, the Department's Office of Contract and Resource
          Management has bctn working with the General Services Administtation to revise and
          clarify the definition of "'sensitiveit-"   to include now commonplace, CommUciaUy
          available items such bs Personal Digital Assistants and cell phones- Pursuant to the
          h i d e n t ' s Management Agenda, SC and NNSA have undertaken rcmuchm         - gsof
          their respective national organizationssg that roles and msponsibilities are clear and
          authorities and accountabilitiesare strengthen& the reatructurings will result in
          uniformity in policies and pmcedures in the proper identification of sensitive property
          and in the purchasing, tracking, and management of sensitive propmy across SC and
          MVSA sites; the restrucmings should also make it possible to ahart easily best
          practices across sites. Finally, the Office of Science, working with the Office of
          Management Budget and Evaluation, is in the process oftesting its business systom at
          each of its laboratories(save two which are already undergoingGAO audits) to
          ascertain any potential vulnerability and associated risks for abuse. Systems employed
          for the purchase, tracking, and managund of pcnonaZ sensitive propmy, arc to
          receive special attention.




Page 11                                                                              Management Comments
                                                                                                              -




                                                                                IG Report No.: DOE/IG-0606

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of fbture reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
    audit would have been helpful to the reader in understanding this report?

2. What additional infomation related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name                                          Date

Telephone                                      Organization

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG- 1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
